TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The National Research Program Study of
                     S Corporations Has Been Effectively
                  Implemented, but Unnecessary Information
                       Was Requested From Taxpayers



                                        January 30, 2007

                              Reference Number: 2007-30-027




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 2(b) = Law Enforcement Guideline(s)
 2(c) = Law Enforcement Tolerance(s)
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 January 30, 2007


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                DIRECTOR, OFFICE OF RESEARCH, ANALYSIS, AND
                STATISTICS

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The National Research Program Study of
                               S Corporations Has Been Effectively Implemented, but Unnecessary
                               Information Was Requested From Taxpayers (Audit # 200630019)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) National
 Research Program (NRP). The overall objective of this review was to determine whether the
 IRS is effectively implementing the NRP Study of Subchapter S Corporation1 Taxpayers
 (hereafter referred to as the NRP study of S Corporations or the NRP study).

 Impact on the Taxpayer
 The NRP study is updating compliance statistics associated with S Corporation tax returns,
 which numbered just over 3.6 million in 2005 and were the most common corporate entity,
 accounting for almost 60 percent of all corporate tax returns filed during the year. While the IRS
 is actively involved in managing and monitoring the current NRP study, some areas need
 improvement. This is important because the NRP study results will assist the IRS in selecting
 and examining S Corporation tax returns that have a greater risk of noncompliance; reducing the
 number of examinations of taxpayers who had correctly reported income and deduction items;
 and, ultimately, reducing taxpayer burden.




 1
  Businesses in which the income generated is generally not taxable to the business but is passed on to the
 shareholders to report on their individual tax returns.
                  The National Research Program Study of S Corporations Has
                Been Effectively Implemented, but Unnecessary Information Was
                                   Requested From Taxpayers



Synopsis
NRP studies are used to measure the amount of noncompliance by taxpayers filing various types
of tax returns and to update the selection process used to identify tax returns for examination.
The last study of S Corporations involved tax returns that were filed over 20 years ago, so it is
outdated.
The current NRP study of S Corporations is in process and was effectively planned to include
oversight and feedback to ensure the study provides valuable data when completed. The NRP
study is on target, with just over 17 percent of the examinations closed as of November 3, 2006.
Revenue agents conducting the examinations received appropriate and timely training. A
multi-layered quality review process is in place, and feedback is provided when appropriate to
resolve any problems identified.
While the IRS is actively involved in managing and monitoring the NRP study, we noted some
areas where there can be further improvement. Some NRP study results may not be complete,
accurate, or provide information sufficient to update existing return selection formulas.
    •   The NRP study instructions contained criteria for line items on tax returns that are
        mandatory to select for examination. Eleven of 61 tax returns2 we reviewed contained
        these line items, but the items were not identified for examination.
    •   The NRP study process includes capturing demographic information about each business
        examined. This information was available in 9 of the 62 cases we reviewed (the data
        were not always available because we were reviewing in-process cases). In two of the
        nine cases, some of this information was inaccurate.
    •   The Examination function relies in part on selection formulas to identify tax returns that
        have greater potential for tax adjustment. An independent review of this NRP study’s
        sampling methodology and sample size3 expressed concern that the sample size may not
        be large enough to update the current selection formulas and recommended that other
        techniques be explored to analyze the results.
The three concerns we noted could reduce the reliability of the NRP study results. However, the
IRS is taking or is planning actions that reduce these risks. Final decisions on how to address
these concerns cannot be made until more of the examinations are completed. As a result, we are
not recommending any additional actions the IRS should take at this time to address the
completeness or accuracy of the NRP study results. We will monitor the adequacy of the IRS’
decisions and actions to address the concerns in future reviews.

2
 See Appendix I for an explanation of the scope of the review.
3
 An Evaluation of The Sample Design for The National Research Program Study of Subchapter S Corporations
(Mathematica Policy Research Inc., dated May 12, 2005).
                                                                                                           2
                    The National Research Program Study of S Corporations Has
                  Been Effectively Implemented, but Unnecessary Information Was
                                     Requested From Taxpayers


In addition, in 35 of the 62 cases, the initial Information Document Requests (IDR)4 included
unnecessary items or did not state clearly what was needed from the taxpayers. In all 35 cases,
the revenue agents used the IDRs to request information that was already available in the case
files or that could have been obtained through use of research tools readily available to the
agents. In addition, in 10 of the 35 cases, the revenue agents did not state clearly what was
needed on the IDR or did not specify the time period when requesting bank records. Taxpayer
burden is increased when revenue agents request unnecessary information or are unclear about
the information needed. We identified similar concerns in our review of the NRP study of
individual taxpayers.5 The IRS agreed with our recommendation in that review and has
completed the corrective action. We believe additional action is needed since this concern could
exist on all examinations, not just NRP study examinations.

Recommendation
We recommended the Director, Examination, Small Business/Self-Employed Division, issue a
reminder to all examiners that the IDRs should be specific and tailored to each examination.

Response
The IRS agreed with our recommendation and will issue a reminder in the Technical Digest that
the IDRs should be specific and tailored to the examination. Management’s complete response
to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-5894.




4
  IDRs are used by revenue agents to request that taxpayers provide information needed during examinations
(e.g., receipts and other items to support entries on tax returns). Multiple items can be requested on each IDR.
5
  Additional Efforts Could Further Improve the Execution of the National Research Program (Reference
Number 2004-30-044, dated January 2004).
                                                                                                                   3
                      The National Research Program Study of S Corporations Has
                    Been Effectively Implemented, but Unnecessary Information Was
                                       Requested From Taxpayers




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Overall, the National Research Program Study of S Corporations Was
          Managed and Monitored Effectively ............................................................Page 2
          Some Study Results May Not Be Complete, Accurate, or Provide
          Information Sufficient to Update Existing Return Selection Formulas........Page 3
          Some Information Document Requests Included Unnecessary Items
          or Were Vague ..............................................................................................Page 6
                    Recommendation 1:..........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measure ................................................................Page 14
          Appendix V – Current Status of S Corporation Tax Returns
          Included in the National Research Program .................................................Page 15
          Appendix VI – Management’s Response to the Draft Report ......................Page 16
          The National Research Program Study of S Corporations Has
        Been Effectively Implemented, but Unnecessary Information Was
                           Requested From Taxpayers




                        Abbreviations

IDR               Information Document Request
IRS               Internal Revenue Service
LMSB              Large and Mid-Size Business
NRP               National Research Program
SB/SE             Small Business/Self-Employed
                  The National Research Program Study of S Corporations Has
                Been Effectively Implemented, but Unnecessary Information Was
                                   Requested From Taxpayers




                                         Background

For years, the Internal Revenue Service (IRS) gathered taxpayer compliance data through
Taxpayer Compliance Measurement Program1 examinations. However, many external
stakeholders including Congress and taxpayer representative associations believed this Program
placed too much burden on taxpayers. The last Taxpayer Compliance Measurement Program
was conducted for individual taxpayers in 1988. In 2000, the IRS established the National
Research Program (NRP) to resume gathering the data it needs to effectively measure
noncompliance and support its strategic planning process. In addition to estimating the level of
noncompliance, the IRS uses the results of NRP studies to update the selection formulas used to
identify tax returns for examination.
In November 2003, the IRS was authorized to conduct a pilot to determine its ability to measure
the compliance level of flowthrough tax returns: U.S. Return of Partnership Income
(Form 1065) and U.S. Income Tax Return for an S Corporation (Form 1120S). These are
business returns on which the income reported is generally not taxable to the business but is
passed on to the partners or shareholders, respectively, to report on their individual tax returns.
As a result of the pilot, the IRS decided to concentrate on S Corporations for the first NRP of
flowthrough tax returns. The NRP Study of Subchapter S Corporation Taxpayers (hereafter
referred to as the NRP study of S Corporations or the NRP study) was officially approved in
April 2005. S Corporations had not been studied since completion of a Taxpayer Compliance
Measurement Program review of Forms 1120S for Tax Year 1984.
Since 1984, there has been great growth in the number of S Corporations. In 2005, just over
3.6 million S Corporation tax returns were filed, accounting for almost 60 percent of all
corporate tax returns filed. The current NRP study of S Corporations includes Forms 1120S for
Tax Years 2003 and 2004. Returns for Tax Years 2003 and 2004 were identified and sent to the
field by the end of October 2005 and by early May 2006, respectively. The IRS planned to have
all returns assigned by June or July 2006 and all examinations completed by September 2008.
This review was performed in the Small Business/Self-Employed (SB/SE) Division offices
located in Chicago, Illinois; Cleveland, Ohio; and Denver, Colorado, during the period
May through October 2006. The audit was conducted in accordance with Government Auditing
Standards. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.



1
 The Taxpayer Compliance Measurement Program was the method used by the IRS prior to the National Research
Program to gather information about national compliance trends through examinations of tax returns.
                                                                                                    Page 1
                    The National Research Program Study of S Corporations Has
                  Been Effectively Implemented, but Unnecessary Information Was
                                     Requested From Taxpayers




                                       Results of Review

Overall, the National Research Program Study of S Corporations Was
Managed and Monitored Effectively
The NRP study of S Corporations was effectively planned to include oversight and feedback to
ensure the study provides valuable data when completed. More specifically:
    •    The IRS applied lessons learned from the initial NRP study of U.S. Individual Income
         Tax Returns (Form 1040) and improved the process. Many team members responsible
         for the NRP study of S Corporations also worked on the NRP study of individuals. They
         built on that experience in planning and implementing the current NRP study. The
         managers we contacted believe the current NRP study is running more smoothly than the
         NRP study of individuals. The IRS received similar feedback during its focus group
         sessions with group managers and revenue agents.
    •    The NRP study appears to be on target at this point. As of November 3, 2006, most of
         the examinations have been started (about 99 percent) and just over 17 percent had been
         closed. See Appendix V for details about the number of S Corporations under
         examination and their status as of November 3, 2006. IRS personnel are closely
         monitoring the status of the examinations.
    •    Training records show that revenue agents assigned to the 62 cases (60 SB/SE Division
         and 2 Large and Mid-Size Business (LMSB) Division) in our review had appropriate
         training and/or experience prior to starting the examinations. All but two of the revenue
         agents had completed the NRP study training prior to starting the examinations. The two
         revenue agents completed the training shortly after starting the examinations. In addition,
         all 62 revenue agents examining the returns had experience examining corporate tax
         returns in the year prior to initiation of the NRP study of S Corporations.
    •    Once cases are assigned, the revenue agents are timely contacting the taxpayers and are
         monitoring dates established for taxpayer meetings and dates established for the
         taxpayers to provide needed information.
    •    A multilayered quality review process is in place. This includes reviews of in-process
         cases by the group managers and Area Office2 review teams. Headquarters personnel
         conducted visitation reviews of each Area Office and reviewed a sample of closed cases

2
 Area Offices are located throughout the United States; they serve as the coordination point for and assist the public
with tax issues.
                                                                                                              Page 2
                    The National Research Program Study of S Corporations Has
                  Been Effectively Implemented, but Unnecessary Information Was
                                     Requested From Taxpayers



         during those reviews. In addition, group managers and the Area Office NRP study
         coordinators are responsible for reviewing cases as they are being closed. NRP study
         cases may also be included in the routine Examination function quality review process.
         The IRS has identified concerns with unnecessary information being requested on
         Information Document Requests (IDR),3 insufficient depth in income probes, and
         inaccurate data capture during the in-process and Headquarters reviews. Feedback has
         been provided where needed, and corrective actions are being planned or taken on the
         problems identified.
While the IRS is actively involved in managing and monitoring the NRP study, we noted some
areas where there is still room for improvement. Details on these areas are included below.

Some Study Results May Not Be Complete, Accurate, or Provide
Information Sufficient to Update Existing Return Selection Formulas
Some line items on the tax returns that are considered mandatory examination issues may not be
examined because they were not identified during classification,4 and the database containing
demographic information about the taxpayers may contain incorrect information. In addition, it
is not yet known if the sample size will be sufficient to allow updating of the Examination
function’s return selection formulas.
Not examining the required examination issues and inaccurate data capture have the potential to
reduce the reliability of the NRP study results. Incomplete and inaccurate results could also
affect the data used to update return selection formulas. The inability to update return selection
formulas could increase the chances of the IRS examining tax returns that do not exhibit a high
degree of noncompliance. However, as we will explain in the following sections, there are
factors that reduce the risk in each of the areas, including actions the IRS is taking or has
planned.

Mandatory examination issues were not always selected during classification
Classifiers for the NRP study of S Corporation tax returns received special instructions for
classification, including the selection of some return line items that were mandatory for
examination. Some instructions stated to select the items if there was an entry on the line; others
contained additional criteria that, if met, would require selection of the line item. In addition, the
mandatory items were noted on the classification sheet to remind revenue agents to consider the
criteria for those items.


3
  IDRs are used by revenue agents to request that taxpayers provide information needed during examinations
(e.g., receipts and other items to support entries on tax returns). Multiple items can be requested on each IDR.
4
  Classification is the process of reviewing tax returns for examination potential and determining which issues
should be examined. Experienced examiners, referred to as classifiers, conduct classification of tax returns.
                                                                                                              Page 3
                    The Nationai Research Program Study ofS Corponrfions Has
                  Bean EHi~ctivelyImplamenfed, but Unnecessary Informatlorr Was
                                              Requesied Fmm Tamyers



Eleven of the 61 tax returnss reviewed had 12 line items that were mandatory for examination,
but the line items were not selected during classification. Five of the I I returns were included in
the classification quality review process, but the line items still were not identified for
examination. However, in 3 of the 11 returns, the line items not selected were closely related to
other Iine items that had been selected for examination. Since the examinations were still open
at the time of our review, it was too early for us to determine whether the line items would be
included in the examination of the other related line items. Including examination of these line
items with the related line items would minimize any negative impact on the NRP study.
While the NRP study process and training included appropriate controls for the classification
process, there is still the potential for human error. The chance for human error is increased
when dealing with the voIume of line items that were being classified on each of the NRP study
S Corporation tax returns.

questionnaires were not always accurately compkted
When examinations are closed, information such as adjustments to tax are entered into
Examination function automated systems. During the NRP study examination process,.
additional demographic information is being gathered about .the taxpayer, such as information
about the business and information for other types of tax returns the business is required to file.
These data are being gathered through a questionnaire that is to. be completed by the revenue
agent before closing the examination.
Since our review included in-process (open) cases, the questionnaire had been completed in only
9 of the 62 cases. The questionnaires contained inaccurate information in two of the nine cases.
1¶3(d)




During the focus group sessions, some revenue agents commented they believed the
questionnaires should have been discussed during the NRP study training. They were not sure
how to interpret some of the questions.
NRP study procedures require that group managers review the questionnaires as they are
reviewing the cases for closing. These reviews had not been completed on the two cases
discussed above, so it is possible the data were or would be corrected after our review of the
cases. This review process should minimize any negative impact on the           study.




 See Appendix I for an explanation of the scope of the review.
                                                                                             Page 4
                   The NatIomI Research Ptvgmm Shrdy of S Cotporations Has
                 Been Efli~ctjvelyImptemented, but Unnecessary /nfomratlon Was
                                    Requested Fmm Ta~payers


Proqram results may not provide sufficient information to update existinq
Examination function tax return selection formulas
One underlying principle of the overall NRP study process design is to gather data to update the
scoring system (formulas) used to identify and select tax returns for examination. These
fomulas are applied to tax returns to calculate a score based on the attributes of the tax returns.
  1 theory is, k.
The            - ,. 7gg-r-,         -,   , ,,.                     l'w.gl*, ?
                                                                                *
                                                                               S."
                                                                                           *'"dS@>,'




Since the last study of S Corporations was conducted on Tax Year 1984 returns, the existing
scoring formulas are outdated and may not be effective. As noted in a recent Treasury Inspector
General for Tax Administration report: the number of S Corporation examinations that result in
no adjustments remains a concern. Conducting examinations on tax returns of taxpayers that are
in compliance is not an effective use of IRS resources and creates undue burden on the
taxpayers.
Prior to implementation of the NRP study of S Corporations, the IRS contracted for an
independent review of the study's. sampling methodology and sample size.7 The contractor
concluded, "in view of the constraints imposed by the combination of labor-intensive
examinations and the limited resources available, on the one hand, and the limited information
on the.variability of the two key measures of compliance, on the other, we find that the proposed
design addresses the study's needs about as well as possible."However, the contractor
expressed concern that the sample size may not be large enough to update the current scoring
fomulas and recommended that otb& techniques be explored to analyze the resu1t.s. The
independent review noted a certain number of instances of noncompliance are necessary to be
able to update existing formulas. It is too early in the NRP study to h o w the extent of
noncompliance that will be identified by the study's examinations.
As the contractor noted, resource constraints were a major factor in the decision about the
number of S Corporations that would be included in the NRP study. The IRS has a limited
amount of revenue agent resources with recent training for conducting examinations of
S Corporation tax returns. In addition, while the NRP study is ongoing, the IRS still has a need
to dedicate revenue agent resources to maintain balanced coverage for examinations of other
types of tax returns-
If the IRS determines that sufficient noncompliance exists to warrant updating the formulas, it is
considering the following options:




 Filing Characteristics and Eiamination Resultsfor Partnerships and S Corporations (Reference'
Number 2006-30-114, dated August 28,2006).
'An E+aluation of The Sample Design fir The National Research Program Study of Subchapter S Cor;porations
(Mathematics Policy Research Inc., dated May 12,2005).
                                                                                                       Page 5
                   The National Research Pmgmm Study of S Cotporat#o#sHas
                 Been Eflectively imp/emented, but Unnecessary In&rmation Was
                                    Requested Fmm T2mpayers

                                                                                        .   .

        Use the NRP study data to update the existing formula~.~  This can occur only if a
        sufficient number of instances of noncompliance are identified in each of the existing
        S Corporation categories. As previously noted, this will not be known until later in the
        NRP study.
        Combine the existing formulas into one formula for all S Corporation tax returns. If the
        IRS combines all instances of noncompliance identified into one category rather than
        dividing them into multiple categories, it is more likely the number of instances of
        noncompliance will be sufficient to develop the new formula.
        Supplement the W study information with data from other routine examinations of
        S Corporation tax returns to update the existing formulas or develop a new formula. The
        IRS currently uses this method for updating formulas for tax returns of individuals.
However, even if the forrnulas are not updated because of the concerns.discussed, the IRS
believes the information developed during the current NRP study still can be used to improve the
selection of S Corporation tax retups for examination. The ZRS is considering the following
options that could indicate noncompliance:
        Using the noncompliance information as the basisfor queries of automated systems such
        as.the Midwest Automated Compliance System9to identify tax returns with similar
        characteristics.
        Using the noncompIiance information during the classification process to improve the
        identification of noncompliance on the part of S.Corporafions.
While some results fkom the NRP study of S Corporation may not be complete, accurate, or
provide information sufficient to update existing return selection formulas, the IRS is taking or is
planning actions to reduce the risks. Final decisions about how to address these concerns cannot
be made until more of the examinations.are completed. As a result, we are not recommending
any additional actions the IRS should take at t h ~ time
                                                    s    to address the completeness or accuracy of
the NRP study results. We will monitor the adequacy of the' IRS' decisions and actions to
address these concerns in fiture reviews.

Some Information Document Requests Included Unnecessary Items
or Were Vague
Examiners use IDRs to advise taxpayers of the items needed to complete the examination. While
most items included on the IDRs were needed in the examination, some items listed on the initial



 The Midwest Automated Compliance System is a computer system developed by the Examination function that
contains tax return information.
                                                                                                   Page 6
      .   . -.
                       m e National Resesrch Program Study of S CorporafioasHas
                 i
                 i
                     Been Effectively Impiemented, but Unnecessary /nfomation Was
                                               Requestad From Tbpay-


IDRs included information that was not necessary or did not state clearly what was needed fiom
the taxpayers. Clear and concise information requests are critical to minimizing taxpayer burden
and confusion and ensuring timely completion of the examinations.
We noted similar concerns with the IDRs during our review of the NRP study of individual
taxpayers." The IRS agreed with our recommendation in the.prior report and incorporated
information on the completion of the IDRs in the NRP study of S corporations training. The
training cautioned that revenue agents should be cognizant of the burden each IDR places on the
taxpayer and/or representative. In addition,the Internal Revenue Manual requires that revenue
agents customize the initial IDR So the case using information gathered from the taxpayer during
the initial contact (e,g., the type of accounting system used and the types of records that are
kept).
Even with the additional training for preparing the IDRs for the NRP study, in 35 of the 62 cases
we reviewed, revenue agents requested unnecessary items from the taxpayer on the initial DR."
            In 29 cases, the revenue agents requested employment tax data that could have been
            researched via the Integrated Data Retrieval System.'' The Integrated Data Retrieval
            System shows whether the taxpayer has filed each return and the totaI dollar amount for
            wages reported during the year. This can be used to determine if the taxpayer filed the
            required tax returns and verify the salary expense being claimed on the tax retum under
            examination.
            In nine cases, the revenue agent requested a copy of the shareholder or S Corporation tax
            return from the taxpayer when the original return was in the case file. NRP study
            procedures provide for obtaining the original S Corporationreturn under examination and
            shareholder returns under certain circumstances as part of the case building process that
            is performed by the support function.
In 10 of the 35 cases, the revenue agents also could have been more specific.in the initial IDRs to
help the taxpayers understand what was being requested. In eight' cases, the revenue agents
                                                                     .

requested bank statements but did not specify the time periods to be covered. In three cases, the
revenue agents requested such things as "all bills" or "details" for the examination issues.I3
Taxpayers may not understand what is required of them when the DRs are vague.
Same revenue agents routinely use various pro forma IDRs when working cases. These agents
may not always take the time to ensure the IDRs are completely customized to the specific cases.


 'O Additional Efoorts Could Further Improve the Execution of the National Research Program (Reference
Number 2004-30-044, dated January 2004).
" Three cases contained both issues mentioned below.
l 2 The integrated D ata Retrieval System is an IRS computer system capable of retrieving or updating stored
information; it works in conjunction with a taxpayer's account records.
I3p

                                                                                                               Page 7
                 The National Research Program Study of S Corporations Has
               Been Effectively Implemented, but Unnecessary Information Was
                                  Requested From Taxpayers



As previously noted, the NRP study reviewers also have been identifying problems with the
IDRs during their in-process reviews and Headquarters visitations. They have used various
methods to communicate the problems being noted to the NRP study staffs. However, we
believe additional action is needed because this situation could exist on all examinations, not just
NRP study examinations.

Recommendation
Recommendation 1: The Director, Examination, SB/SE Division, should issue a reminder to
all examiners, not just NRP study examiners, that IDRs should be specific and tailored to each
examination and that examiners need to consider taxpayer burden in preparing the IDRs.
       Management’s Response: The IRS agreed with the recommendation. The Director,
       Examination, SB/SE Division, will issue a reminder in the Technical Digest to all
       examiners that IDRs should be specific and tailored to the examination and that
       examiners need to consider taxpayer burden in preparing IDRs.




                                                                                             Page 8
6@i                    The Nationai Research Pmgram Study of S Corporations Has
          Fi Been Effbetiveiy ImpJemented, but Unnecessary Infonnatlon Was
 'B                              Requested From Tdxpayers
  \
  ,$ ,
     ,&
.   - --.. .                   -           -- -.       . --       ----

                                                                                                     Appendix I

           Detailed Objective, Scope, and Methodoiugy

The overall objective of this review was to determine whether the IRS is effectively
implementing the NRP Study of Subchapter S Corporation' Taxpayers (hereafter.referred to as
the NRP study of S Corporations or the NRP study). This NRP study should provide updated
information about tax compliance of S Corporations, and the data should be used to improve the
selection of those tax returns.for examination.

Area Offices2and 2 LMSB Division cases assigned to groups in the                   &
Our case review consisted of 60 SBISE Division cases from the Central Midwes and Western

metropolitan area that had been identified through judgmental selection by IRS operations
personnel. we ~eviewedthe same cases being quality reviewed by Es operations personnel in
the Area Offices we visited. We agreed to use the same cases to minimize the number of in-
process cases that had to be taken offline. IRS operations personnel had selected the cases based
on the amount of time applied to the cases to identify cases that would have had significant
examination work completed. In addition, they selected a wide dispersion of cases throughout
the geographical area. However, the information to complete our reviews was not always
available in every case file. The scope for the case review tests was 62 unless otherwise noted.
To accomplish our objective, we:
1.       Determined whether the resources of the .selected field ofices were effectively organized
         to meet the gods of the NRP study of S Corporations.
         A. Reviewed Audit Information Management System3monitoring reports to determine
            whether NRP study examinations were being timely assigned.
         . Evaluated NRP study inventory allocation.among offices and available staffing.
         C. Interviewed responsible managers to determine whether NRP study goals were
            attainable.
         D. Analyzed the type of case assignments made prior to the NRP study tbr revenue
            agents assigned to the 62 cases included in our review to determine their existing slull



  Business returns in which the income generated is generally not taxable to the business but is passed on to the
shareholders to report on their individual tax returns.
  Area Offices are located throughout the United States; they serve as the c&rdination point for and assist the public
with tax issues.
  The Audit Information Management System is a computer system designed to give the Examination function
information about tax returns in mventory and closed.
                                                                                                              Page 9
                  The National Research Program Study of S Corporations Has
                Been Effectively Implemented, but Unnecessary Information Was
                                   Requested From Taxpayers



            sets and reviewed class rosters to determine whether the revenue agents had
            completed the NRP study training.
II.     Determined whether field-level controls were effective to ensure the NRP study for
        S Corporations examinations were timely completed and yielded reliable data.
        A. Reviewed minutes from focus group sessions with group managers and revenue
           agents to identify field-level concerns regarding the NRP study process.
        B. Reviewed the report prepared by the independent reviewer4 of the sampling process
           and discussed resolution of the concerns or problems identified with NRP study
           management.
        C. Reviewed training modules and instructions provided to NRP study revenue agents.
        D. Reviewed documentation of the classification quality reviews.
        E. Reviewed a sample of 62 open NRP study cases in the selected geographical areas to
           determine whether:
                a. All necessary case-building materials were included in the examination case
                   file (61 cases).
                b. Revenue agents were addressing all classified items (61 cases).
                c. Internal sources of information were used wherever possible to minimize
                   information requests to taxpayers.
                d. Related returns were secured as needed.
                e. There were indications of reviews being conducted by group managers or
                   other management officials.
                f. Taxpayer contacts were initiated within 30 calendar days of assignment
                   (60 cases).
                g. Taxpayers were timely providing data requested and revenue agents were
                   timely monitoring action dates.
III.    Evaluated the extent of all levels of IRS managerial supervision and involvement in the
        NRP study of S Corporations examination process.
        A. Reviewed the analysis of the flowthrough NRP study pilot to determine how concerns
           or problems identified were resolved for the full-scale study.



4
 An Evaluation of The Sample Design for The National Research Program Study of Subchapter S Corporations
(Mathematica Policy Research Inc., dated May 12, 2005).
                                                                                                   Page 10
         The National Research Program Study of S Corporations Has
       Been Effectively Implemented, but Unnecessary Information Was
                          Requested From Taxpayers



B. Interviewed program and operational managers to determine the types of cooperation
   that existed within the IRS for coordinating the process and commitment to timely
   completion of the NRP study.
C. Reviewed the procedures and outcomes of the various in-process and closed case
   reviews and visitations to determine the level of quality assurance being provided.
   This included reviewing how the results were shared with operating staff and the
   adequacy of corrective actions.
D. Observed press coverage of the NRP study of S Corporations to determine whether
   there was negative reaction from external stakeholders.




                                                                                  Page 11
                The National Research Program Study of S Corporations Has
              Been Effectively Implemented, but Unnecessary Information Was
                                 Requested From Taxpayers



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Amy L. Coleman, Audit Manager
Joseph P. Snyder, Lead Auditor
Janis Zuika, Senior Auditor
Phyllis E. Heald, Auditor
Chanda L. Stratton, Auditor




                                                                                        Page 12
                The National Research Program Study of S Corporations Has
              Been Effectively Implemented, but Unnecessary Information Was
                                 Requested From Taxpayers



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Project Director, National Research Program RAS:NRP
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Examination Planning and Delivery, Small Business/Self-Employed Division
SE:S:E:EPD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
        Commissioner, Large and Mid-Size Business Division SE:LM
        Commissioner, Small Business/Self-Employed Division SE:S




                                                                                     Page 13
                     The National Research Program Study of S CotporatIons Has
                   Been E-fivety   lmpkemented, but Unnecessary fnfonnatiun Was
                                     Requested From T'payers



                                                                                                   Appendix IV

                                        Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
         Taxpayer Burden - Potential; 35 taxpayers on whose initial DRsl the revenue agents
         requested unnecessary information or used vague language (see page 6).

Methodoloqy Used to Measure the Reported Benefit:
We reviewed 62 in-process cases being worked as part of the NRP Study of Subchapter S
CorporationZTaxpayers. The cases had been selected by the IRS for its quality review process.
The IRS selected a judgmental sample of in-process cases, including those assigned to a wide
range of Examination function groups and revenue agents. The IRS was conducting these
reviews for the entire country. However, we reviewed only the 60 SB/SE Division cases from
the Central, Midwest, and Western Area Offices3and the 2 LMSB Division cases assigned t'o
groups in theb :' ' "          i] metropolitan area.
                                 ,




' lDRs are used by revenue agents to request that taxpayers provide information needed during examinations
(e.g., receipts and other items to support entries on tax returns). Multiple items can be requested on each IDR.
  Business returns in which the income generated is generally not taxable to the business but is passed on.tothe
shareholders to report on their individual tax returns.
3
  Area Offices are located throughout the United States; they serve as the coordination point for and assist the public
with tax issues.
                                                                                                             Page 14
                     m e National Research Pragram Study of S Corpomfions Has
                  Seen Effectively Implemented, but Unnecessary Informafion Was
                                     Requested From Taxpayem
                                     ...-.-.-----. ---..... .    .. -----.-.--- ---- . . .             .-   ..   ,,




                                                                                              Appendix V

          Current Status of S Corporation Tax Returns
          lncfudedin the National Research Program




      source:' Treasury ~risbector~ e n e r afor                onulysu ifthe NRP ~ t u d~j u d i~nfonncrhorr
                                              l Tax ~d?ntnrs&rro~                                 t
      hfanagement system1 Status Reports as of Novetnber 3,2006.
Legend:
Cases Not Started - Cases in a status code2 below 12.
Cases Started - Cases in Status Code 12.
Cases Being Closed - Cases in a status code above 12 and below 90.
Cases Closed - Cases in Status Code 90.


' The Audit Information Management System is a computer system designed to give the Examination functio~l
information about tax returns in inventory and closed.
 A code used in Examination function databases indicating the shtus of an examination.
                                                                                                       Page 15
     The National Research Program Study of S Corporations Has
   Been Effectively Implemented, but Unnecessary Information Was
                      Requested From Taxpayers



                                                   Appendix VI


Management’s Response to the Draft Report




                                                          Page 16
  The National Research Program Study of S Corporations Has
Been Effectively Implemented, but Unnecessary Information Was
                   Requested From Taxpayers




                                                       Page 17
